Of fice of the Inspector General
T e n n e s s e e Va l l e y A u t h o r i t y




                 Semiannual Report
                     October 1, 2005 ~ March 31, 2006
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA)
Board of Directors and Congress on
the overall efficiency, effectiveness,
and economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
inspections, and investigations.

The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse;
(2) violations of laws, rules, or
regulations; and (3) inefficiencies in
TVA programs and operations.
                                   Tennessee Valley Authority
                                  Office of the Inspector General



          Message From the Inspector General

        This is my first report to TVA’s newly constituted Board since the new Board members were sworn in on
March 31, 2006. Legislation signed by President Bush in 2004 expanded the Board from three full-time
members to nine part-time members, with a full-time chief executive officer to run TVA on a day-to-day basis. As
has been noted by many, this is a historic change to the governance structure of TVA.

         The impetus for this change was a growing sentiment over the years that TVA’s governance structure
had become anachronistic. For 73 years, TVA was managed by three full-time board members. United States
Senate Majority Leader Bill Frist, who introduced and helped secure passage of the restructuring legislation, has
commented that the change is a matter of “common sense.” As the nation’s largest public utility, TVA will now
have a corporate structure similar to that of its competitors. The hope is that the new governance structure will
help position TVA to compete on a level playing field if as expected the traditional “fence” that has historically
protected TVA’s market disappears.

          The focus of this governance change is accountability. We also focus on accountability as well as
economy and efficiency. The OIG performs audits, inspections, and investigations that are designed to assist
TVA in achieving its mission of providing affordable, reliable power, being a good steward of the environment, and
fostering economic development. The work highlighted in this report is indicative of the efforts we take to help
TVA achieve its goals. I am pleased to report that my experience has been that TVA management works
collaboratively with the OIG and conscientiously implements our recommendations. There is a demonstrable
commitment to excellence at TVA.

          I offer my sincere congratulations to the new board members and acting Chief Executive Officer Tom
Kilgore. I want to extend my personal thanks to Directors Harris and Baxter who have demonstrated a
commitment to supporting an independent OIG at TVA. I look forward to experiencing the same spirit of
cooperation and partnership with the new board members.

         The challenges facing TVA are great, but the honor to serve the citizens of the Tennessee Valley is even
greater. On this historic occasion, the OIG renews our pledge to provide independent, objective, and competent
reports as TVA moves forward into a new era.




                                                                                                Richard W. Moore
                                                                                                Inspector General
                                                                                                   April 28, 2006
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile                                                                                          3

Office of the Inspector General                                                                      4

Special Feature                                                                                     11

Audits                                                                                              15

Inspections                                                                                         22

Investigations                                                                                      28

Legislation and Regulations                                                                         37




Appendices                                                                                          38


Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          39


Appendix 2 Audit Reports Issued                                                                     40


Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   42


Appendix 4 Audit Reports With Corrective Actions Pending                                            44


Appendix 5 Investigative Referrals and Prosecutive Results                                          46




Highlights                                                                                          47




TVA Office of the Inspector General
Executive Summary



During this reporting period, we continued to support TVA by conducting objective
audits, inspections, and investigations. In accordance with our mission, our reviews are
designed to promote economy, effectiveness, and efficiency while detecting and
preventing fraud, waste, and abuse. In total, we identified over $6 million in recoveries,
fines/penalties, potential savings, questioned costs, or funds which could be put to
better use, as outlined in the chart below.



                               STATISTICAL HIGHLIGHTS
                  October 1, 2005 ~ March 31, 2006
                   Audit Reports Issued                               22
                   Questioned Costs                            $774,000
                   Funds Recovered                            $1,641,000
                   Funds Put to Better Use                     $700,000
                   Funds Realized by TVA                       $740,000
                   Investigations Opened                              80
                   Investigations Closed                              71
                   Fines/Recoveries/Restitution/Savings       $4,598,189
                   Criminal Actions                                    6
                   Administrative Actions (No. of Subjects)            9
                   Inspections Completed                              14



Our 22 audits and 11 other audit-related projects during this reporting period resulted in
questioned costs and the identification of areas for improvement. Highlights include
(1) contract audits which identified over $770,000 in questioned costs and $700,000 in
funds which could be put to better use, (2) information technology (IT) audits which
identified needed control improvements, and (3) financial-related and operational
reviews which found most internal controls were adequately designed to mitigate risks,
but identified opportunities to improve control effectiveness. TVA management used
information from our audits to recover or disallow about $1.6 million and negotiated
about $740,000 in contract cost savings.




page 1                                                        October 1, 2005 ~ March 31, 2006
                                                               Executive Summary



Our Inspections unit is now fully operational. That unit completed 14 projects which
identified several opportunities for improved program operations. Inspection topics
included the process and controls for emissions data reporting, tool control programs,
and purchasing card usage.

Investigations highlights include recoveries or avoided costs which in total exceeded
$2.4 million from false claims and workers’ compensation investigations alone. In
addition, we continued our fraud prevention efforts, including fraud risk assessments
across TVA programs, which led to strengthened internal controls in several TVA
processes. We also continued our participation on interagency task forces and
activities to develop more proactive investigative initiatives.

We undertook several initiatives during this reporting period to improve communications
with our stakeholders. Highlights include (1) the outsourcing and adoption of a new
hotline program, Empowerline; (2) issuance of an OIG newsletter, OIG Connection; and
(3) visits by the Inspector General (IG) to TVA plant sites.




                                                                              Definitions
                                                                  Q u e s t i o n e d C o s t s - Costs that
                                                                  are unnecessary, unreasonable,
                                                                  unsupported, or an alleged
                                                                  violation of law, regulation,
                                                                  contract, etc.
                                                                  U n s u p p o r t e d C o s t s - Questioned
                                                                  costs that are not supported by
                                                                  adequate documentation.
                                                                  F u n d s P u t t o B e t t e r U s e - Funds
                                                                  that could be used more
                                                                  efficiently by implementing
                                                                  recommended actions.
                                                                  D i s a l l o w e d C o s t s - Costs that
                                                                  management agrees should not
                                                                  be charged to TVA.




TVA Office of the Inspector General                                                            page 2
T VA P r o f i l e



On March 31, 2006, six new members of TVA’s Board of Directors were sworn in. This
marked a change after 73 years from a full-time, three-member board to a part-time
nine-member board. In stepping down as chairman, Bill Baxter said it was important to
elect a new board chairman and have a symbolic break from the past. Bill Sansom
was selected as the new chairman. Highlights of TVA history and operations follow.

 On May 18, 1933, Congress passed the TVA Act, creating TVA as a federal

   corporation. TVA’s threefold mission includes power production, environmental
   stewardship, and economic development.

 TVA, as the nation’s largest public power company, operates 11 fossil plants, 29

   hydroelectric dams, 3 nuclear plants, 6 combustion turbine plants, a pumped-
   storage facility, and 17,000 miles of transmission lines. TVA also produces energy
   from three renewable sources––sun, wind, and methane gas from waste. The TVA
   service area covers 80,000 square miles in the Southeastern United States, including
   almost all of Tennessee and parts of Mississippi, Kentucky, Alabama, Georgia, North
   Carolina, and Virginia. By providing wholesale power to 158 municipal and coopera-
   tive power distributors and directly serving 62 large industries and government
   installations in the Valley, TVA supplies the energy needs of 8.5 million people.

 As a regional development agency, TVA not only supplies affordable, reliable power,

   but also supports a thriving river system and stimulates sustainable economic
   development in the public interest. TVA manages the nation’s fifth largest river
   system. TVA dams are part of a totally integrated resource management system for
   a 41,000-square-mile watershed. Each dam operates in relationship to the others
   for multiple purposes and public benefits, including flood control, maintaining
   navigation, providing recreational opportunities, and protecting water quality.

 TVA contributes to the Valley economy chiefly by keeping power rates competitive.

   This helps attract and retain industries that provide quality jobs in the region. TVA
   also helps communities promote sustainable economic development by providing
   assistance in job creation and retention and productivity improvements via capital
   investment, support of business incubators, specialized technical services and
   advice, and recruitment for new and existing industries.


page 3                                                     October 1, 2005 ~ March 31, 2006
                                        Office of the Inspector General



Office Authority

Created by the TVA Board of Directors in 1985, the TVA OIG became statutory under
the IG Act Amendments of 1988. The authority to appoint the TVA IG was transferred
to the President in November 2000 by Public Law No. 106-422. The IG is responsible
for conducting audits and investigations relating to TVA programs and operations while
keeping the TVA Board and Congress fully and currently informed about problems and
deficiencies. The TVA IG is independent of TVA management and subject only to the
general supervision of the TVA Board.


OIG RESPONSIBILITIES

 Promote economy and efficiency while preventing and detecting fraud, waste, and

   abuse.

 Conduct and supervise audits and investigations relating to TVA programs and

   operations.

 Keep the TVA Board and Congress fully and currently informed concerning fraud and

   other serious problems, abuses, and deficiencies relating to TVA programs and
   operations.

 Recommend corrective actions concerning problems, abuses, and deficiencies, and

   report on the progress made in implementing such actions.

 Assure any work performed by non-federal auditors complies with government

   auditing standards.

 Issue semiannual reports to TVA Board and Congress.


OIG AUTHORITIES

 Conduct any audit or investigation the IG deems necessary or desirable.

 Have access to all records and other material available to TVA.

 Issue subpoenas and administer oaths.




TVA Office of the Inspector General                                              page 4
Office of the Inspector General



 Receive complaints and grant confidentiality.

 Have direct and prompt access to the TVA Board.

 Hire employees and contract for services as necessary.


Organization

The OIG’s primary location is in the TVA headquarters office complex in Knoxville,
Tennessee. To obtain broader coverage throughout the Valley, the OIG also has an
Inspections unit located in Chattanooga, Tennessee, and Investigations offices at the
Browns Ferry Nuclear Plant (BFN) in Alabama, in Mayfield, Kentucky, and in
Chattanooga. The OIG consists of two primary components: (1) Audits and
Inspections and (2) Investigations.


OIG STRATEGIC PLAN

VISION

To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of TVA’s programs
and operations.

MISSION

Promote excellence in TVA’s operations through the conduct of investigations, audits,
inspections, and advisory services designed to promote economy, efficiency, and
effectiveness and prevent and detect fraud, waste, and abuse.

LEADERSHIP PHILOSOPHY

The TVA OIG strives to be a high performing organization made up of dedicated
individuals who are empowered, motivated, competent, and committed to producing
high quality work that improves TVA and life in the Valley. Each of us has important
leadership, management, team, and technical roles. We value integrity, people, open
communication, expansion of knowledge and skills, creative problem solving, and
collaborative decision-making.




page 5                                                    October 1, 2005 ~ March 31, 2006
                                        Office of the Inspector General



CORE VALUES
   Independence. OIG will strive to be independent in both fact and appearance in
   the performance of its duties.
   Integrity. OIG employees will adhere to the highest ethical standards in the
   performance of their duties and responsibilities.
   Quality. OIG will complete projects in a manner that meets applicable professional
   standards, as well as meeting customer expectations.
   Respect for Individuals. OIG will treat everyone, including stakeholders and peers,
   with respect and consideration.
   Results. The ultimate goal of the OIG will be to provide the maximum results
   possible to the agency in order to affect positive change.
   Innovation. OIG employees will be encouraged to seek innovative ways to improve
   the impact the OIG has on the agency in a manner that does not sacrifice quality.
   Teamwork. OIG employees will work cooperatively with one another and with
   employees in other organizations in order to achieve successful accomplishment of
   the OIG mission.
   Initiative. OIG employees will demonstrate the highest levels of initiative to ensure
   discretionary time is utilized to the fullest benefit of the OIG.
   Leadership. Leadership functions will be the responsibility of all employees.
   Communication. OIG employees will strive to continuously improve
   communications by holding each other accountable for ensuring important
   information is shared and sensitive information is protected.




TVA Office of the Inspector General                                                 page 6
Office of the Inspector General



STRATEGIC GOALS

         PERFORMANCE                 WORKFORCE                    S TA K E H O L D E R
          Perform timely               Cultivate and                Effectively
           reviews that               retain a highly            communicate with
             address                      skilled,               stakeholders and
           stakeholder               innovative, and              deliver services
          concerns and                  motivated                 that meet their
         areas of highest               workforce                      needs
                risk



STRATEGIC OBJECTIVES

   Focus efforts on areas        Hire and retain the            Manage stakeholder
    of highest impact and          best                            perceptions of the
    risk                          Manage pay to stay              OIG to promote
   Ensure processes are           competitive with target         ( 1 ) h i g h c r e d i b i l i t y,
    efficient and effective        market                          (2) independence and
   Maintain highest levels       Develop staff to                o b j e c t i v i t y, a n d
    of quality                     achieve the highest             (3) responsiveness to
                                   level of capabilities           needs
   Stay abreast of
    emerging issues and           Motivate staff to excel        Improve stakeholder
    industry trends                                                awareness of OIG
                                  Ensure accountability
   Stay abreast of                in individual                  Ensure stakeholders
    stakeholder concerns           performance                     are kept informed
   Continue to develop           Promote a                      Ensure stakeholders
    innovative methods for         balanced lifestyle              have an opportunity to
    fraud detection                                                provide input in the
                                                                   annual audit planning
                                                                   process and each
                                                                   i n d i v i d u a l r e v i e w, a s
                                                                   appropriate
                                                                  Increase effectiveness
                                                                   of OIG hotline




AUDITS AND INSPECTIONS

Audit Operations (AO) conducts and/or supervises comprehensive financial and
performance audits of TVA programs and operations. Based upon the results of such
audits, AO makes recommendations to ensure that program objectives and operational
functions are achieved effectively and efficiently. AO develops an annual audit plan to
effectively allocate audit resources. The audit plan addresses those issues, programs,
operations, and activities that hold the greatest exposure for TVA to significant risks
and/or vulnerabilities.

AO consists of three departments––Contract Audits, Financial/Operational Audits, and
IT Audits.




page 7                                                       October 1, 2005 ~ March 31, 2006
                                           Office of the Inspector General



 Contract Audits has lead responsibility for contract compliance and

   preaward audits. In addition, this group performs reviews of TVA
   contracting processes and provides claims assistance and litigation
   support.

 Financial/Operational Audits has lead responsibility for (1) oversight of

   TVA’s financial statement audits performed by TVA’s external auditor;
   (2) reviews of TVA’s internal controls related to financial reporting,
   operational efficiency, and compliance with laws and regulations; and (3) operational
   reviews to assess the results and economy and efficiency of TVA programs.

 IT Audits has lead responsibility for audits relating to the security of TVA’s IT

   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.

The Inspections unit was formed at the beginning of fiscal year (FY) 2004. Inspections
provides flexibility to conduct limited scope policy and program evaluations to promote
                           economy and efficiency in the management and administration
                           of TVA programs. In accordance with the Quality Standards for
                           Inspections, the objectives of the Inspections unit include
                           providing a source of factual and analytical information,
                           monitoring compliance, measuring performance, assessing the
                           efficiency and effectiveness of operations, and/or conducting
                           inquiries into allegations of fraud, waste, abuse, and
                           mismanagement.




TVA Office of the Inspector General                                                       page 8
                 Office of the Inspector General



                 INVESTIGATIVE OPERATIONS

                                 Investigative Operations (IO) conducts and coordinates investigative activity
                                 related to fraud, waste, and abuse in TVA programs and operations. The
                                 activities investigated include possible wrongdoing by contractors, employees,
                                 and loan recipients. IO maintains liaisons with federal and state prosecutors
                                 and reports to the Department of Justice whenever the OIG has reasonable
                                 grounds to believe there has been a violation of federal criminal law. IO works
                                 with other investigative agencies and organizations on special projects and
                 assignments, including interagency law enforcement task forces on terrorism, the
                 environment, and health care.


                 VISITS FROM OTHER OIGS

                 Cliff Jennings, IG for the Appalachian Regional Commission (ARC), visited our office on
                 November 19, 2005. Mr. Jennings presented Curtis Phillips, Investigations Manager,
                 and Craig Yates, Senior Special Agent, with Special Achievement Awards for their
                 assistance in a criminal investigation for ARC.

                 On November 30, 2005, Debra S. Ritt, Smithsonian IG; Sprightly Ryan, Assistant
                 Inspector General (AIG) Investigations and Legal Counsel; and Stuart Metzger, AIG
                 Audit, visited to discuss our innovative processes such as fraud risk assessments,
                 Sarbanes-Oxley work, and Empowerline.




Pictured from left to right: Debra Ritt, Stuart Metzger, Sprightly Ryan,   Pictured from left to right: Cliff Jennings and Craig Yates
                       and TVA IG Richard Moore




                 page 9                                                                     October 1, 2005 ~ March 31, 2006
                                                            Office of the Inspector General




                                                    Inspector General




                           Legal Counsel




                                                                                                         Assistant Inspector
              Assistant Inspector
                                                                    Assistant Inspector                        General
                    General
                                                       Deputy             General                         (Administration &
                   (Audits &                          Assistant       (Investigations)                      Government
                 Inspections)                         Inspector                                              Relations)
                                                       General
                                                    (Inspections)
                          Contract Audits
                                                                                 Investigations                           Human
                            Manager
 Audit Quality                                                                      Manager                              Resources
  Manager                                                                                                                 Manager
                             Financial/
                            Operational
                                                                                 Investigations
                          Audits Manager                                                                                   Media
                                                                                    Manager
                                                                                                                          Relations
                            Information
                            Technology
                          Audits Manager
                                                     Contacts

Inspector General                                                       Audit Quality Manager
Richard W. Moore . . . . . . . . . . .(865) 632-4120                    Paul E. Ivie . . . . . . . . . . . . . . . .(865) 632-3891

Legal Counsel                                                           Contract Audits Manager
Richard P. Levi . . . . . . . . . . . . .(865) 632-6197                 David P. Wheeler . . . . . . . . . . . .(865) 632-4770

Assistant Inspector General (Audits &                                   Financial/Operational Audits Manager
Inspections)                                                            Louise B. Beck . . . . . . . . . . . . .(865) 632-2622
Ben R. Wagner . . . . . . . . . . . . .(865) 632-2272
                                                                        Information Technology Audits Manager
Deputy Assistant Inspector General                                      Jill M. Matthews . . . . . . . . . . . .(865) 632-4730
(Inspections)
Gregory C. Jaynes . . . . . . . . . . .(423) 751-7821                   Investigations Manager
                                                                        Curtis D. Phillips . . . . . . . . . . . .(865) 632-2584
Assistant Inspector General (Investigations)
Charles A. Kandt . . . . . . . . . . . .(865) 632-4120                  Investigations Manager
                                                                        C. Dale Hamilton . . . . . . . . . . . .(865) 632-3956
Assistant Inspector General (Administration
& Government Relations)                                                 Human Resources Manager
Ronald Wise . . . . . . . . . . . . . . . .(865) 632-4752               Kay T. Myers . . . . . . . . . . . . . . .(865) 632-7718

                                                                        OIG Media Relations
                                                                        Anne B. Ferrell . . . . . . . . . . . . .(865) 632-3505




                                   OIG website: http://oig.tva.gov




TVA Office of the Inspector General                                                                                    page 10
Special Feature



OIG Outreach Efforts to Improve Communications

To be fully effective, the OIG needs the support and cooperation of TVA management
and employees. Effective communications are a key element in establishing this
relationship. While we are pleased with the current level of support and cooperation we
receive, we believe we can do a better job of communicating with our stakeholders.
Toward that end, we have undertaken or expanded several initiatives, including
(1) issuing an OIG newsletter called OIG Connection, (2) revamping our hotline, now
called “Empowerline,” (3) visiting plant sites, and (4) posting reports on the OIG web
page.


OIG NEWSLETTER

                        The OIG developed and issued a quarterly OIG newsletter, the
                        OIG Connection, to improve understanding of the OIG role. The
                        first issue was sent to TVA and contractor employees during
                        January 2006. That issue described Empowerline, OIG
                        independence, the IG, and how employees can help the OIG do
                        its job.




page 11                                                    October 1, 2005 ~ March 31, 2006
                                                                 Special Feature



EMPOWERLINE

A review of hotlines at other private and public companies and other information
showed we needed to make the OIG reporting system more
convenient, and we needed to do a better job of
communicating OIG’s independence and purpose. We also
determined that employees and contractors wanted
additional assurance that they may choose to remain
anonymous when they contact the OIG. To meet these
needs, we decided to contract out and redesign our hotline.
Accordingly, we contracted with a third party to operate the
hotline, now called “Empowerline,” and established a new
system whereby individuals can contact Empowerline by telephone or through the web.

New and enhanced features of Empowerline include the following:

 Because not everyone can call between 8 a.m. and 5 p.m. weekdays––the usual

   business hours––Empowerline will be staffed 24 hours a day, seven days a week to
   receive concerns.

 Individuals who call Empowerline will talk with a third-party contractor to provide

   further assurance that no one at TVA will know the caller’s identity unless they
   consent to disclosure.

 Individuals will be given a protected password when they contact Empowerline.

   They can use the password to track the resolution of their concern and, if they
   reported a concern anonymously, to check for any follow-up questions the OIG may
   have.

 Empowerline will provide detailed trending and tracking data to the OIG to identify

   potential problem areas based on the numbers and types of concerns.

 Empowerline’s web page provides information about the types of concerns which

   should be reported to the OIG and contact information about where to report other
   TVA-related concerns.




TVA Office of the Inspector General                                                page 12
                  Special Feature



                  IG VISITS PLANT SITES

                  The IG personally kicked off an initiative to open a dialogue with TVA employees when
                  he attended all-hands meetings during February and March at the Kingston, John
                                                       Sevier, and Johnsonville Fossil Plants. The plant managers were
                                                       fully supportive of these visits, and the IG plans to visit as many
                                                       plant sites as he can over the coming year.

                                                       The OIG is reaching out to plant personnel because the OIG
                                                       cannot be truly effective unless employees feel free to express
                                                       concerns to the OIG. The OIG relies heavily on employees who

IG Richard Moore (left), Laborer James Perkins of
                                                       are on the front lines to identify areas where a more in-depth
 Johnsonville (center), and AIG for Investigations
               Charles Kandt (right)                   review, such as an audit or
                  investigation, might help TVA. The all-hands meetings
                  provide an opportunity to discuss the OIG’s role and
                  responsibilities and encourage employees to call
                  Empowerline. These visits by the IG help ensure
                  employees understand that Empowerline provides a
                  vehicle for them to report concerns anonymously or in
                                                                                                               Plant Manager Earl Deskins (right) gave Richard Moore
                  confidence, and that the OIG values their input. It also                                      (left), OIG contractor Jack Brennan (center left), and
                                                                                                                    Charles Kandt (center right) a tour of Kingston
                  provides an opportunity to remind plant employees that
                  specific special agents––who generally attend the all-hands meetings––have been
                  designated for each TVA facility.




                                                      Left to right: Assistant Unit Operator Bobby McFalls, Unit Operator Mike
                                                     Hoag, Richard Moore, Assistant Unit Operator Jeff McGahee, Unit Operator
                                                              John Antrican, and Unit Operator Phil Davis at John Sevier




                  page 13                                                                                   October 1, 2005 ~ March 31, 2006
                                                                 Special Feature



POSTING AUDIT AND INSPECTION REPORTS

We have begun posting some final audit and inspection reports on the OIG web page,
either in summary form or in their entirety (after redacting information which would be
withheld under the Freedom of Information Act). This practice is consistent with the
practice of other presidentially appointed IGs and guidance suggested by the
President’s Council on Integrity and Efficiency (PCIE). We will not, however, be posting
even a summary of certain audits, such as security reviews and preaward audits,
because of their special sensitivity.




TVA Office of the Inspector General                                               page 14
Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other
stakeholders. During this reporting period, we completed 22 audits which identified
over $770,000 in questioned costs and $700,000 in funds which could be put to better
use. We also identified numerous opportunities for TVA to improve program operations.
Our audits included (1) pre- and postaward contract audits, (2) financial-related audits,
(3) IT audits, and (4) operational audits. We also completed 11 other audit-related
projects.


PREAWARD CONTRACT AUDITS

To support TVA management in negotiating procurement actions, we completed two
preaward audits that identified $700,000 in potential savings opportunities. Highlights
of the preaward audits follow.

 We reviewed a contractor’s indirect costs to determine if the cost recovery rates

   included in the contract with TVA for providing engineering, material supply, and
   installation support for automating TVA’s hydro system were fairly stated. We
   determined a direct labor markup included in the contract was overstated based on
   the company’s historical costs and estimated TVA would save about $99,800 by
   negotiating a markup based on the historical costs. TVA management used the
   findings from our audit to negotiate reductions in the contract’s indirect cost recovery
   rates.

 We reviewed a contractor’s proposal to provide flue gas desulfurization process

   equipment and related engineering services for scrubber efficiency improvement
   solutions for TVA’s fossil plants under a five-year contract with estimated
   expenditures of $50 million. We determined the contractor’s cost proposal was fairly
   stated in comparison to recent actual costs. However, the contractor’s salary
   burdens included cost allowances for bid and proposal expenses that we estimated



page 15                                                     October 1, 2005 ~ March 31, 2006
                                                                                   Audits



   would cost TVA $600,000 over the five-year contract period. We suggested TVA
   negotiate reduced salary burdens to eliminate the bid and proposal expenses and
   instead pay for these expenses directly. The potential savings to TVA would depend
   on the amount of bid and proposal expenses billed directly to TVA. TVA
   Procurement subsequently informed us the bid and proposal expenses had been
   eliminated as indirect costs and the salary burdens had been reduced accordingly.

CONTRACT COMPLIANCE AUDITS

During this reporting period, we completed five contract compliance audits that
identified $774,247 in ineligible and unsupported costs. Highlights of the audits follow.

 We determined a contractor that provided selective catalytic reduction catalyst

   (1) understated a material cost adjustment due TVA by $5,933 and (2) could not
   provide verifiable documentation of the material weights used in its catalyst
   production. TVA management subsequently recovered the overbilled cost.

 We reviewed adjustments to provisional billings of indirect costs submitted by a

   contractor providing nuclear security services and determined the contractor’s
   adjustments for calendar years 2002 through 2004 were overstated $80,615 due to
   errors in its reconciliation of previously billed costs. We also determined the
   contractor owed TVA additional credits totaling $28,829. The contractor agreed with
   our findings and submitted adjusted invoices that included credit for the questioned
   amounts.

 We determined 23 percent of the $18.4 million in payments TVA made to a

   contractor that provided chemicals and water treatment services during FY 2004
   were authorized without proper receipt. Although the prices billed generally
   complied with the contract, we noted $6,266 of overbillings and estimated that TVA
   paid $322,579 for unsupported prices. TVA management agreed to implement
   more effective controls over receipt, recovered the $6,266 overbilling, and plans to
   obtain appropriate documentation for the unsupported prices.




TVA Office of the Inspector General                                                  page 16
Audits



 We reviewed $5.1 million of costs billed to TVA by a contractor for welding services

   performed at Browns Ferry Nuclear Plant (BFN) Unit 1 by one of its subcontractors.
   We determined TVA had been billed $295,067 for (1) per diem payments that
   exceeded contract per diem limits; (2) ineligible and unsupported per diem,
   relocation, and equipment costs; and (3) ineligible fees. TVA management agreed
   with our audit findings and plans to take action to recover the overbilled amounts
   from the contractor.

 We determined TVA had been overbilled $34,958 out of $64.5 million of costs billed

   to TVA by a contractor for engineering services performed at BFN Unit 1 by one of
   its subcontractors. The overbilling included (1) $20,243 of per diem payments that
   had not been approved by TVA; (2) $8,019 of relocation payments made to an
   employee who had already been paid to relocate to BFN by another contractor;
   (3) $3,623 of travel expenses that were either ineligible, over contractual limits, or
   should have been included in overhead; and (4) $3,073 of fees that should have
   been credited back to TVA. TVA management subsequently recovered $16,235 of
   the questioned costs.

OTHER CONTRACT-RELATED PROJECTS

We issued four notifications to TVA management regarding issues we found during
limited reviews of certain contracts. The issues included (1) contractor invoicing of
ineligible administrative charges, (2) duplicate cost billings, (3) unclear pricing terms in a
contract, and (4) contractor pricing that did not comply with contractual provisions.

We also provided advice to TVA management regarding (1) evaluations of cost
proposals received for a planned maintenance and modifications contract and (2) audit
clauses for a benefits contract.




page 17                                                       October 1, 2005 ~ March 31, 2006
                                                                                 Audits



FINANCIAL-RELATED AUDITS

During this semiannual period, we completed seven financial-related audits, two
attestation engagements, and interim testing of controls for twelve financial reporting
processes to assist with TVA’s initiative to comply with Section 404 of the Sarbanes-
Oxley Act (SOX). Highlights of the audits follow.

 The external auditor, PricewaterhouseCoopers LLP (PwC), issued an unqualified

   opinion on TVA’s FY 2004 and FY 2005 financial statements on November 17, 2005.
   On that date, PwC also issued a combined report on its consideration of TVA’s
   internal control over financial reporting and compliance with certain provisions of
   laws and regulations for the year which ended September 30, 2005. In meeting our
   statutory responsibility for the financial statement audit, the OIG (1) assessed the
   external auditor’s methodology, evidence, and documentation; (2) performed
   supplemental tests of accounting records and compared the results to those of the
   external auditor; and (3) examined the independence and qualifications of the
   external auditor. We determined the financial statement audit was performed in
   accordance with Government Auditing Standards in all material respects.

 We found no instances where TVA’s external auditor’s review of TVA interim financial

   information for the first quarter of FY 2006 did not comply with Government Auditing
   Standards in all material respects, including required communications to appropriate
   parties.

 We assessed controls over time reporting and determined process control

   documentation was inadequate in establishing responsibility for ensuring accurate
   time reporting, including monitoring of time reported. Management agreed with our
   findings and initiated corrective action to improve guidance.

 We performed a follow-up review of TVA’s hospitality program and determined TVA’s

   hospitality spending had decreased by 70 percent since our 2004 review. We also
   noted: (1) not all purchasers of hospitality had completed the hospitality training
   module; (2) some purchases were not charged to the correct cost classification;
   (3) TVA’s Hospitality Policy did not require use of form TVA 17901, Pre-approval of




TVA Office of the Inspector General                                                 page 18
Audits



   TVA Hospitality Expenditure; (4) TVA’s Hospitality Policy did not address use of a TVA
   purchasing card for purchasing hospitality; and (5) TVA’s pre-approval form did not
   require assessment of reputation risk. Management generally agreed with our find-
   ings and is taking appropriate corrective action.

 We assessed controls over TVA’s reporting of its asset retirement obligation (ARO) to

   ensure related balances included in the financial statements as of June 30, 2005,
   were accurate and complete. We determined controls over the ARO reporting
   process were operating effectively to ensure balances were accurately reported in all
   material respects.

 In support of TVA initiatives to comply with SOX requirements in FY 2007, we issued

   a summary report on our results of controls documentation reviews for 15 key
   business processes determined to be in scope for SOX compliance. We identified
   no deficiencies in 7 of the 15 processes; however, documentation and control
   deficiencies were identified in the remaining 8 processes. We provided the Controller
   recommendations for improvement and obtained information on actions planned by
   management to remediate the deficiencies. In addition, we completed testing of
   controls for 12 of the more than 80 processes determined to be in scope for SOX
   compliance and issued interim reports to management. Management has
   developed a plan for completing corrective action in this fiscal year. Testing of the
   remaining processes will continue during FY 2006 to assist TVA in preparing for
   required SOX compliance in FY 2007.

 We assessed controls over TVA’s intragovernmental activity and balances for the

   third quarter of FY 2005. We determined (1) intragovernmental balance information
   as reported generally agreed with the third-quarter financial statements; (2) there
   were some inaccuracies in the data submitted, indicating the need for better controls
   to ensure data reported is accurate and representative of balances in TVA’s financial
   statements; and (3) the Controller organization made reasonable efforts to explain
   and resolve the material differences in the balances reported by TVA and those
   reported by its federal trading partners. We made recommendations to improve
   controls over the accuracy of data, and management has taken corrective action.



page 19                                                    October 1, 2005 ~ March 31, 2006
                                                                                    Audits



 We performed procedures agreed-upon with TVA management over the FY 2005

   performance measures and found: (1) changes to the FY 2005 goals were properly
   approved with one exception which did not impact the payouts; (2) actual year to
   date inputs for each indicator agreed with the respective reason for improvement
   sheet with one exception which did not impact the payouts; (3) actual inputs for the
   eight TVA-wide metrics agreed with the underlying support provided by the strategic
   business units; and (4) the payout percentages were mathematically accurate after
   noted exceptions were corrected.

 We completed the IG agreed-upon procedures over TVA’s intragovernmental activity

   and balances to assist the United States Treasury in preparing and the United States
   Government Accountability Office in auditing the FY 2005 United States
   government-wide consolidated financial statements.

IT AUDITS

During this reporting period, we completed six audits in the IT environment.
These reviews pertained to (1) internal controls for five financially significant
applications and (2) a review of IT security controls in TVA procurement
contracts. We found improvements were needed to address weaknesses in
the following areas:

 Processing controls designed to ensure accurate and efficient processing

   of transactions. Weaknesses related to timely release of transactions for processing;
   audit log monitoring; documentation of data flow, controls, and processes; and
   manual processing that could be automated.

 Logical security controls designed to prevent unauthorized access to system

   programs and data. Various weaknesses related to direct data changes, access
   management, remote access, security configurations, and security requirements
   documentation.




TVA Office of the Inspector General                                                  page 20
Audits



 General controls designed to ensure ongoing operations. Weaknesses related to

   change management, backup and contingency planning, and disaster recovery
   testing.

 Controls ensuring IT security issues were uniformly identified and addressed for all

   contracts. Weaknesses related to (1) identification, documentation, and approval of
   responsibilities for security issues and access to systems and data by contractors;
   and (2) monitoring and enforcement of terms and conditions affecting IT security.


Management generally agreed with our findings and either has implemented or is in the
process of implementing corrective actions.




page 21                                                   October 1, 2005 ~ March 31, 2006
                                                                                      Inspections



Summary of Representative Inspections

Our Inspections unit, based in Chattanooga, is now fully operational. Inspections’
objective is to provide management with independent and objective analysis to assist in
improving the efficiency and effectiveness of TVA operations, and to be the recognized
source within TVA for operational business
consulting services and special project
reviews. Inspections provides a source of
(1) factual and analytical information,
(2) testing for compliance, (3) measuring
performance, and (4) conducting inquiries
into possible areas of fraud, waste, abuse,
and mismanagement. Inspections helps
                                                 Pictured from left to right (back): Jay Piercy, Mike Driver, Greg Jaynes, Ashley
                                                   Haga, Mike Patty, and Rick Underwood; (front) Heather Kulisek, Stephanie
TVA achieve objectives by systematically                        O’Daniel, Deanna Garrison, and Brenda Adams

evaluating and improving risk management,
control, governance, and the implementation of best practices. Inspections staff work
with stakeholders to develop suggestions/recommendations that are practicable and
cost effective.

The Inspection Plan addresses key strategic and risk areas, including (1) BFN Unit 1
Restart Project Monitoring, (2) Employee Benefits and Workforce Planning,
(3) Transmission Costs and Reliability, (4) Continuity of Operations, and (5) Power
Pricing. Inspections’ goals include:

 An average cycle time of 90 days or less for all projects; and

 Sixty percent of completed projects address key operational risk areas.

Inspections is headed by a Deputy Assistant Inspector General and will have
15 employees. Inspections employees have degrees in varying fields such as business
administration, finance, accounting, economics, and industrial and systems
engineering. Their certifications include CPA (certified public accountant), CFE (certified




TVA Office of the Inspector General                                                                    page 22
Inspections



fraud examiner), CISA (certified information system auditor), CGFM (certified
government financial manager), and MHP (managed healthcare professional).

During this reporting period, we completed 14 inspections which identified numerous
opportunities to improve TVA program operations. Highlights of our inspections follow.


CLEAN AIR EMISSIONS MONITORING

                       We reviewed the process and controls for emissions data
                       reporting. Our objective was to ensure that controls are
                       prescribed and functioning to ensure accurate Continuous
                       Emissions Monitoring System (CEMS) data reporting. In
                       summary, we found controls are prescribed and functioning
                       which ensure the accuracy of CEMS data reporting. Specifically,
                       we found the data is being approved and certified at the plant
and the TVA designated representative level prior to submission to the Environmental
Protection Agency. In addition to controls prescribed by the Fossil Power Group’s
process, TVA’s Environmental Compliance and Technology Applications organization
performed environmental program reviews which also evaluated compliance with
controls and quality procedures related to CEMS reporting.


TVA NUCLEAR (TVAN) TOOLS CONTROL PROGRAM

The OIG was requested by the Vice President, BFN Unit 1 Restart, to review tool
management associated with the restart project. TVA is providing all necessary tools
for the restart. Based on the results of this review, we also assessed the tool
management program at TVA’s Sequoyah and Watts Bar Nuclear Plants.

We found a significant lack of tool accountability/tracking resulting from
(1) noncompliance with the relevant TVAN Business Practice, prescribed processes,
and key control activities; and (2) other process/control weaknesses. Management
agreed with our findings and plans to initiate corrective actions.




page 23                                                     October 1, 2005 ~ March 31, 2006
                                                                          Inspections



TVA FOSSIL’S HEAVY EQUIPMENT DIVISION (HED) TOOLS CONTROL
PROGRAM

The fossil tool program began in 1991 for the purpose of providing tools for the Fossil
Power Group and its contractors. Fossil Power’s HED assumed responsibility for the
fossil tool program in 1995.

We found that HED appears to be following the policies and procedures set forth in
their policy for the distribution and reclamation of tools at the fossil plant sites. HED
procedures and key control activities ensure that HED leased tools are adequately
tracked and accounted for. However, (1) the computer inventory tracking system does
not accurately reflect HED tools available for lease and (2) documentation related to the
disposal of tools and inventory adjustments could be improved. Management agreed
with our findings and has taken or plans to take appropriate corrective actions.


REVIEW OF LOW-LEVEL RADIOACTIVE WASTE LIABILITY (LLRW) ESTIMATES

We performed an inspection to assess the reasonableness of estimates made for
disposal of LLRW. We found the (1) FY 2005 LLRW estimate appeared reasonable
when unforeseen incurred LLRW disposal costs were taken into account; and
(2) processes, methodology, and assumptions used to develop the FY 2006 disposal
estimates were consistent with those used in developing the FY 2005 estimates. In
addition, we verified that the LLRW expense and liability accounts were adjusted
quarterly in accordance with the relevant TVAN Business Practice.

However, we noted (1) the process and methodology for developing LLRW estimates
was not documented, (2) a lack of cross-training potentially existed, and (3) no recent
physical inventory was done at the plants. Management agreed with our findings and
has taken or plans to take appropriate corrective actions.




TVA Office of the Inspector General                                                  page 24
Inspections



REVIEW OF TVA PURCHASING CARD USAGE

                   TVA began its Visa Purchasing Card Program for small dollar
                   purchases, up to and including $5,000, in 1994. The OIG has
                   conducted several reviews of the Purchasing Card Program since its
                   inception. Our current review covered the period June 1, 2002,
                   through June 30, 2005. Purchases during this period were made
by 1,826 cardholders and totaled about $250.3 million, including $80.2 million during
calendar year 2004.

In summary, we found Procurement has made program changes to address control
weaknesses identified in our previous report; however, we still noted travel and
travel-related expenses charged to the purchasing cards contrary to TVA policy. We
also found (1) weaknesses in supervisory review and approval of purchasing card
statements, (2) disallowed and questionable purchasing card transactions,
(3) purchasing cards issued without required documentation, and (4) TVA policies and
on-line training modules do not clearly and consistently define acceptable purchasing
card use for hospitality expenses.

Procurement stated that subsequent to our review period, actions were taken to
address weaknesses in supervisory review and approval of purchasing card statements.
Procurement further advised that additional actions would be taken in response to most
of our recommendations. We suggested Procurement implement additional monitoring
controls as appropriate in those areas where Procurement elected not to adopt our
recommendations.


REVIEW OF TVA USAGE OF EBAY TO DISPOSE OF SURPLUS ASSETS

We performed a limited scope review to assess the processes and controls over the
sale of surplus TVA assets on eBay, including how eBay is chosen for the sales
mechanism, reserves are determined, and payments are received and accounted for.
Our review of the TVA Investment Recovery (IR) procedures for eBay sales identified
several opportunities for improvement. Specifically, the procedures (1) did not




page 25                                                   October 1, 2005 ~ March 31, 2006
                                                                          Inspections



adequately address the minimum acceptable price and payment processes/controls
and (2) provided TVA organizations, which may not have IR’s expertise, the ability to sell
TVA assets on eBay. Management agreed with our findings and has taken or plans to
take appropriate corrective actions.


TVA HELICOPTER USAGE

TVA’s helicopter fleet consists of seven helicopters which TVA owns and self-insures.
Those helicopters are used for a variety of missions, including:

 Inspecting TVA’s 17,000 circuit miles of transmission lines in a seven-state region;

 Aerial photography, laser mapping, and river and environmental surveys;

 Construction support;

 Clean air testing;

 Right-of-way inspections;

 Transportation of TVA executives;

 Economic development activities, such as aerial tours of industrial megasites; and

 Deployment for emergency contingencies such as floods, tornadoes, and ice

   storms.

We found the TVA helicopter fleet appeared to be used for valid business purposes.
However, there were no documented guidelines identifying proper uses of the helicopter
fleet and approval levels needed to obtain flight services. Additionally, there has been
no cost-benefit study of helicopter fleet usage to ensure it is being used effectively.
Management agreed with our findings and has taken or plans to take appropriate
corrective actions.




TVA Office of the Inspector General                                                  page 26
Inspections



TVA’S CONTINUITY OF OPERATIONS PLAN (COOP)

Federal Preparedness Circular (FPC) 65, issued in July 1999 and revised in June 2004,
outlines specific COOP requirements. TVA, as a federal agency, falls under the
provisions of FPC 65. We found that while TVA’s June 2002 proposed COOP plan
(1) appears to address major COOP requirements as stated in FPC 65 and (2) provides
guidance for preparation of site, activity, or business unit specific COOP plans, the plan
lacks proper implementation and support. Management agreed with our findings and
has taken or plans to take appropriate corrective actions.




page 27                                                      October 1, 2005 ~ March 31, 2006
                                                                     Investigations



Summary of Representative Investigations

During the past six months, we closed 71 investigations based, in part, on allegations
and concerns received from ratepayers, TVA management and employees, and OIG
auditors. Our investigations, including task force projects and joint investigations with
other agencies, resulted in (1) over $4.5 million in recoveries, projected savings, and
fines/penalties; (2) three subjects indicted; and (3) three subjects convicted.

Our investigative activities are designed to prevent and detect fraud, waste, and abuse.
While our investigations in the past have largely been reactive, we are implementing
programs to become more proactive. Our proactive efforts include (1) contracting out
and publicizing the OIG hotline, now called “Empowerline”; (2) placing an additional
emphasis on testing for fraud during audits and having auditors make referrals to
Investigations; (3) devoting one employee to full-time data mining to look for anomalies
and fraud indicators in TVA data sets; (4) working with TVA management to conduct
fraud risk assessments; and (5) assigning OIG special agents to be responsible for
specific TVA plant sites and develop relationships with the people there. In this
connection, we are working with TVA management to ensure that allegations which do
not rise to the level of warranting an OIG investigation are appropriately considered and
acted upon.

We also recognize the importance of sharing investigative resources and information
with other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this period, we continued to provide
investigative resources to the Environmental Crimes Joint Task Force and a Health Care
Task Force, sponsored by the United States Attorney for the Eastern District of
Tennessee, and the Joint Terrorism Task Force (JTTF), led by the Federal Bureau of
Investigation (FBI), Knoxville Field Division.

Illustrative investigations follow.




TVA Office of the Inspector General                                                 page 28
Investigations



FALSE CLAIMS

Our investigations of alleged false claims led to recovery or avoided costs for TVA of
over $1 million.

 As part of a joint investigation with several government agencies, we determined that

   a Texas company, which was a subcontractor for TVA, submitted false claims for
   payment for services not rendered. Although the company denied any wrongdoing,
   it reached a settlement agreement with the agencies in a civil False Claims Act case.
   The company agreed to pay $2.7 million to the United States. Of this amount, TVA
   received $185,901 as its share of the settlement.

 We previously reported joint audit/investigation findings that the barge draft method

   used to weigh coal has consistently led to TVA being overbilled by roughly 15 tons
   per barge. The barge company previously agreed to a negotiated settlement of
   $295,000 for transportation costs overbilled for coal not delivered. During this
   reporting period, the coal company agreed to a negotiated settlement for coal not
   shipped resulting in a cost avoidance of $824,904.

WORKERS’ COMPENSATION FRAUD

Our workers’ compensation cases during this reporting period included an indictment, a
guilty plea, and a sentencing. The long-term savings to TVA from these cases are
projected to exceed $1.4 million.

 A former TVAN employee was indicted by a federal grand jury on

   one count of filing a false statement to obtain benefits under the
   Federal Employees’ Compensation Act (FECA). The indictment
   charged the employee falsely reported to the Office of Workers’
   Compensation Programs (OWCP) during April 2003 that he was
   not employed or self-employed.

 A former TVAN employee pled guilty to four felony counts of

   making false statements to obtain workers’ compensation
   benefits under FECA. The former employee admitted filing false annual reports with



page 29                                                    October 1, 2005 ~ March 31, 2006
                                                                    Investigations



   the Department of Labor OWCP, for the period February 2001 to February 2004,
   stating he was not employed when in fact he had other employment. Based on the
   false statements, the former employee received $98,000 in workers’ compensation
   benefits. With the guilty plea, the former employee forfeited his right to continuing
   benefits under FECA, which will reduce TVA’s future workers’ compensation costs by
   almost $800,000.

 A former Fossil Power employee recently convicted on four counts of filing false

   statements to obtain FECA benefits was sentenced by a federal district judge to
   60 months’ probation, fined $5,000, and ordered to make restitution of $44,101.
   We have requested the OWCP declare a forfeiture on the $138,120 in benefits paid
   during the period covered by the false statements. As noted in a prior report, we
   estimated the long-term savings based on the former employee not receiving future
   benefits will be over $600,000.

FALSIFICATION OF RECORDS

We substantiated three records falsification cases, two involving nuclear records and
one involving travel records, as follows.

 A TVAN contractor employee attempted to mislead a quality inspector in order to

   complete an assigned task. The evidence showed the contractor employee
   attempted to mislead the inspector into believing a piece of pipe support material
   had been replaced, when in fact the material had not been replaced. The contractor
   employee directed the part number be ground off the pipe support, had the tag
   removed, provided the inspector with documentation indicating the material had
   been replaced (when it had not), and incorrectly told the inspector that piece of
   material had the correct paperwork. The evidence further showed the contractor
   employee was supervised by his brother in violation of the contractor’s policy on
   nepotism. The contractor employee was terminated, and the contractor took action
   to ensure its nepotism policy was followed.




TVA Office of the Inspector General                                                page 30
Investigations



 A TVAN employee falsified a radiological survey––a quality assurance document.

   The employee also made inconsistent and inaccurate statements regarding that
   survey to the OIG and TVA management. No one was exposed to radiation as a
   result of the falsified survey, and TVA management terminated the employee.

 A Fossil Power employee falsified time reports by claiming overtime he had not

   worked. The employee was suspended for two weeks, demoted from a
   supervisory position, and required to reimburse TVA for the pay received based on
   the false time reports.

CONFLICT OF INTEREST

A Fossil Power employee entered a guilty plea to a one-count misdemeanor
conflict-of-interest violation in United States District Court and was fined. The employee
had accepted a part-time position with a TVA contractor while at the same time serving
as the technical contract manager (TCM) for the contract. TVA management
suspended the employee for two weeks and removed him from TCM duties.


CREDIT CARD MISUSE

We completed two investigations involving misuse of a TVA credit card.

 A contract employee and members of her family used several TVA Wright Express

   credit cards for personal purchases. The contract employee pled guilty to one count
   of theft in Alabama state court. She was sentenced to a one-year suspended
   sentence and two years of unsupervised probation, and was ordered to make
   restitution to TVA in the amount of $7,572.

 A Fossil Power employee misused a TVA travel card by charging airline tickets for

   family members and not reimbursing TVA. The employee
   explained he gave the wrong credit card number to his
   daughter to pay for airline tickets. The employee
   reimbursed TVA the cost of the tickets and surrendered
   the travel card.




page 31                                                   October 1, 2005 ~ March 31, 2006
                                                                    Investigations



MISUSE OF COMPUTER RESOURCES

We received several allegations involving misuse of TVA computer resources.

 In one case, our investigation showed a TVA employee violated TVA policy by

   (1) using his personal laptop computer with a wireless
   access card to gain unauthorized access to the TVA
   network, (2) installing an unauthorized file sharing program
   on his TVA desktop computer, and (3) using a file sharing
   program to download or share music on the Internet
   through the TVA network. The employee resigned.

 We also investigated or referred to management several cases involving the

   storing/transmitting of sexually explicit and/or other inappropriate non-work related
   materials on TVA computers by TVA and/or contractor employees. Management
   took corrective action in each case, including reminding employees of relevant
   policies, counseling employees, and issuing written warnings.




TVA Office of the Inspector General                                                page 32
            Investigations



            FRAUD RISK ASSESSMENTS (FRA)

            We work with TVA management to conduct FRAs of major processes throughout TVA.
            An FRA is a process for management and business process owners to identify and
                                                                                analyze fraud risk factors that may be
                                                                                common to general business practices
                                                                                and also specific to the organization
                                                                                and its operations. The OIG serves as a
                                                                                facilitator and consultant during the FRA
                                                                                process. This process is intended to
                                                                                identify (1) types of frauds which can
                                                                                occur, (2) the likelihood and significance

Pictured from left to right: David Winstead, Nancy Holloway, Beth Thomas, and
                                                                                of fraud occurring, (3) the controls in
      Curtis Phillips. These OIG employees form the core OIG FRA team.
                                                                                place to prevent fraud, and (4) actions
            needed to improve fraud prevention controls. As part of this process, we also provide
            fraud awareness training.

            Our outreach efforts have been successful in achieving full cooperation and support
            from TVA as demonstrated by management requests for fraud risk assessments and
            the candor shown by employees during the assessment process. These efforts also
            have promoted working relationships between OIG and TVA employees. The following
            FRAs were completed during this reporting period. In each case, fraud risk areas,
            possible fraud schemes, and potential remediation areas were identified, and
            management is taking or plans to take appropriate corrective action.

             Convenience check process––the potential remediation included (1) further

                 separation of duties, (2) identity verification, (3) further controls over blank checks,
                 (4) training, and (5) data mining.

             Accounts payable––the potential remediation included (1) additional training for

                 technical contract managers and Accounts Payable employees and (2) data mining.




            page 33                                                                       October 1, 2005 ~ March 31, 2006
                                                                      Investigations



 Inventory process, including the processes to receive and inspect material, record

   movement, and manage site material and the Supplier Managed Inventory
   program––the potential remediation included (1) improving cycle count procedures,
   (2) ensuring the Project Review Committee approves all major advance purchases,
   and (3) ensuring the notification process includes Procurement when operating
   assets become obsolete so that associated inventory items can be properly written
   off.

 Time reporting process––the identified opportunities to further mitigate risks included

   (1) providing training on responsibilities and accountabilities for time reporting,
   (2) identifying cost-effective system edits, (3) upgrading the system to notify
   approving officials of changes to previously approved time or schedule, and
   (4) upgrading the system to require audit logs of all software changes or
   modifications.

 TVA contract––one additional opportunity to further mitigate risk was identified, i.e.,

   to require the contractor’s employees to provide periodic certifications to support
   temporary living allowance claims.

SPECIAL PROJECT

We reviewed the Valley Advantage Program, which was created in 2003 to offer
incentives for businesses to relocate or expand existing facilities within the Valley to
create new jobs, increase power sales, stimulate capital investment, and provide wages
higher than prevailing wages. The control weaknesses identified during our review
included (1) inadequate documentation was maintained to support funding decisions,
(2) the loan approval process was not consistent with program guidelines, (3) reporting
requirements were inconsistent, (4) there was no process to verify project goals were
met, (5) project qualification criteria may not have been clear, (6) there was no guidance
on the level required for the company’s signature, and (7) past commitment letters were
open-ended. Management took appropriate corrective action in response to our
findings.




TVA Office of the Inspector General                                                      page 34
Investigations




TASK FORCES

We recognize the importance of sharing investigative resources and information with
other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this period, we continued to provide
investigative resources to three task forces.

 We continued our participation on the JTTF, led by the FBI’s Knoxville Field Division.

   Because of TVA’s critical, energy-related infrastructure, we have devoted one special
   agent full-time to the task force and have committed audit support on an as-needed
   basis. As previously stated by FBI Director Robert S. Mueller, “the JTTFs have
   played a central role in virtually every terrorism investigation, prevention, or
   interdiction within the United States. . . . JTTFs team up FBI agents with police
   officers, members of the Intelligence Community, Homeland Security, and other
   federal partners to coordinate counterterrorism investigations and share information.
   They are also a critical conduit between the FBI and the officer on the beat.”

 We continued our participation on a Health Care Fraud Task Force sponsored by the

   United States Attorney for the Eastern District of Tennessee. TVA operates a
   self-insured health benefits plan, and claims of health care fraud involving TVA and
   others are investigated by the Task Force. The Task Force includes representatives
   from the investigative arms of federal, state, and local agencies, and Blue Cross/
   Blue Shield of Tennessee’s Special Investigations Unit.

 The Environmental Crimes Joint Task Force, which also is sponsored by the United

   States Attorney for the Eastern District of Tennessee, is comprised of members from
   numerous federal and state agencies. Our participation on this Task Force helps
   support the TVA goal of supporting a thriving river system.




page 35                                                      October 1, 2005 ~ March 31, 2006
                                                                                                                                                 Investigations




                                                                             Administrative and Disciplinary Actions
                                                                                            T o t al = 2 7


                                                                                                               O ra l / W ri t t e n
                                                                                                                W a rn i n g s
                                                                                                                                                         Su s p e n s i o n /
                                                                                                                      19%
                                                                                                                                                          D emo t i o n
                                                                                                                                                              11%



                                                                                                                                                            T e rm i n a t i o n s /
                                                              C o u n s el i n g /                                                                          R es i g n at i o n s
                                                              Man ag emen t                                                                                        11%
                                                              T e c h n i qu e s
                                                                    59%




                                         Closed Cases by Area
                                               T o t al = 7 1



                                                                                  R i v e r Sy s t e m
                                                 Po w e r Sy s t e m              O p e ra t i o n s &
                    A d m i n i s t ra t i v e    O p e ra t i o n s
                        S e rv i c e s                                            E n v i ro n m e n t
                                                         7%                                6%
                            16%
                                                                                         F o s s i l Po w e r
                                                                                              G ro u p
                                                                                                14%
                 O t h er
                 32%                                              T V A N u cl ear
                                                                       25%




                                                                                         Hotline Telephone and E-Mail Concerns
                                                                                              Reported to OIG Investigations
                                                                                                        T o t al = 4 4


                                                                                           An o n y m o u s                                      O t h er
                                                                                                32%                                               7%

                                                                                                                                                                            TV A
                                                                                                                                                                        E m pl o y e e s
                                                                                                                                                                            25%

                                                                 F o rm e r
                                                          T V A & C o n t ra c t o r
                                                               E m pl o y e e s
                                                                                          C o n t ra c t o r
                                                                    5%                                                                 G e n e ra l P u b l i c
                                                                                          E m pl o y e e s
                                                                                                                                               20%
                                                                                              11%




TVA Office of the Inspector General                                                                                                                                                        page 36
Legislation and Regulations



          Under the IG Act of 1978, one of the IG’s responsibilities is to review
          legislation and regulations which may have an impact on the economy and
          efficiency in the administration of TVA programs and operations. Accordingly,
          we follow legislative areas of interest pertaining to the IG community and TVA.
          The TVA IG, Richard W. Moore, serves on the Legislation Committee for the
          PCIE, and we worked with the PCIE to provide comments on legislation
          involving the IG community. Legislation we reviewed during this reporting period
included proposed amendments to the IG Act, the TVA Act, and the Atomic Energy
Act, and proposed new whistleblower protection legislation.




page 37                                                      October 1, 2005 ~ March 31, 2006
     APPENDICES




TVA Office of the Inspector General   page 38
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     37


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                         15-34


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         15-34


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            15-34


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 39                                                                      October 1, 2005 ~ March 31, 2006
                                                                                 Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                  QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                        COSTS       COSTS     BETTER USE

CONTRACT

2005-044C
10/03/05         Cormetech, Inc.                              $5,933    $5,933


2005-046C
10/04/05         Voith Siemens Hydro - Review of
                 Proposed Indirect Cost Recovery Rates                              $99,800

2005-050C
11/04/05         Pinkerton Government Services -
                 Review of Provisional Billings              109,444   109,444

2005-017C
11/09/05         Ecolochem, Inc. - Contract Compliance 328,845         322,579

2006-004C
12/02/05         URS Corporation                                                    600,000

2005-043C
12/05/05         WachTechnical Services - Subcontract
                 with Stone & Webster Construction, Inc. 295,067         9,400

2005-045C
01/18/06         Review of EPC Jobs, Inc. - Subcontract
                 with Bechtel Power Corporation               34,958    20,243

F I NA N C I A L
2005-057F
11/01/05         Review of Asset Retirement Obligation

2005-041F
11/18/05         Audit of PwC Audit of TVA’s
                 FY 2005 Financial Statements

2005-061F
11/30/05         Review of Intragovernmental Activity
                 and Balances

2006-006F
12/01/05         TVA IG Agreed-Upon Procedures for
                 Intragovernmental Activity and Balances -
                 FY 2005

2005-059F
12/06/05         Summary of Sarbanes-Oxley 404
                 Process and Controls Documentation
                 Review (SOX 404 Design Effectiveness
                 Reviews)

2005-063F
10/31/05         Agreed-Upon Procedures on TVA
                 FY 2005 Performance Measures




TVA Office of the Inspector General                                                    page 40
Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                  QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                        COSTS       COSTS     BETTER USE

F I NA N C I A L ( c o n t . )
2005-034F
01/30/06        Internal Controls over Time Reporting

2006-013F
02/13/06        Review of TVA’s FY 2006
                First Quarter Financial Information

INFORMATION TECHNOLOGY

2005-021T
10/07/05        Passport Application, Access, and
                General Controls

2005-055T
01/24/06        Integrated Contractor System
                Logical Access and General Controls

2005-060T
01/24/06        Fuelworx Logical Access and
                General Controls

2005-039T
01/30/06        Eworkplace Application, Access,
                and General Controls

2006-003T
01/31/06        IT Security Controls Over
                Procurement Contracts

2006-007T
03/30/06        HED Fleet Logical Access and
                General Controls

PERFORMANCE
2005-052F
02/23/06        Follow-up Review of TVA’s Hospitality
                Program


TOTAL           22                                      $774,247      $467,599       $699,800




page 41                                                            October 1, 2005 ~ March 31, 2006
                                                                                                Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                        QUESTIONED COSTS
                                                                NUMBER                TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period                4               $1,298,422             $487,659

B.   Which were issued during the reporting period                   5                 $774,247             $467,599

Subtotals of A and B                                                9               $2,072,669             $955,258

C.   For which a management decision was made during
     the reporting period                                            9*              $2,072,669             $955,258

     (i) Dollar value of disallowed costs                            9               $1,122,034             $624,155

     (ii) Dollar value of costs not disallowed                       5                 $950,635             $331,103

D.   For which no management decision has been made by
     the end of the reporting period                                 0                        $0                   $0

E.   For which no management decision was made within
     six months of issuance                                          0                        $0                   $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs disallowed
  and not disallowed by management.




TVA Office of the Inspector General                                                                          page 42
Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                                             NUMBER              DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period                            1                    $3,923,500

B.   Which were issued during the reporting period                               2                      $699,800

Subtotals of A and B                                                             3                  $4,623,300

C.   For which a management decision was made during
     the reporting period                                                        3*                   $4,623,300

     (i) Dollar value of costs agreed to by management                           2                      $633,081

     (ii) Dollar value of costs not agreed to by management                      2                    $3,990,219

D.   For which no management decision has been made by
     the end of the reporting period                                             0                              $0

E.   For which no management decision was made within
     six months of issuance                                                      0                              $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs
  disallowed and not disallowed by management.




page 43                                                                       October 1, 2005 ~ March 31, 2006
                                                                                                    Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions on recommendations in the following audits have not yet been fully implemented; however, all are
being implemented in accordance with currently established milestones.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION




2001-074T                Application Review of Pegasys
01/07/02                 This report contained recommendations regarding facility access control. TVA management
                         approved funding for a new system on February 28, 2006. Implementation is scheduled to
                         begin August 2006 and be complete by September 30, 2008.


2003-004C                A&G Tree Service, Inc.
03/30/04                 A Contracting Officer’s decision was issued in March 2005 that concurred with the audit finding
                         and directed A&G to reimburse TVA for overpayments of $638,542 under a closed contract.
                         During May 2005, TVA stopped A&G from performing work under a subsequent contract and
                         recovered part of TVA’s damages by withholding payment on invoices under the subsequent
                         contract totaling $88,362. A&G has sued TVA under the subsequent contract for the withheld
                         payments and has filed suit challenging the Contracting Officer’s decision. The time frame for
                         resolution of these lawsuits is indeterminate.


2003-024F                Review of TVA’s Accounts Receivable and the Allowance for Doubtful
11/18/03                 Accounts
                         This report contained recommendations to (1) develop, document, and implement guidelines for
                         estimating the allowance for doubtful accounts; (2) ensure reconciliation of the general ledger
                         and subsidiary accounts include documentation of corrections and adjustments made during
                         power and nonpower reconciliations and management review and approval of all nonpower
                         adjusting journal entries; (3) make modifications to the write-off process to ensure invoices are
                         written off in a timely manner; (4) develop and implement procedures to track written off
                         accounts for future collection efforts or business decisions; (5) ensure accounts are written off in
                         accordance with policy; and (6) review and update Accounting Procedure 25 to clarify the
                         criteria for referring past due customers to the General Counsel’s office. TVA management
                         agreed to implement our recommendations and has transitioned the responsibilities to a new
                         group. Processes and procedures will be evaluated and updated by June 30, 2006, and a new
                         system is planned.


2003-040T                Nuclear Plant IT Security
03/30/04                 This report included recommendations to strengthen logical and physical controls at a nuclear
                         generation facility. TVA management is implementing planned remediation actions that are
                         expected to be completed by November 30, 2006.


2003-056T                Pre-Implementation Review of TVA’s New Fuelworx Application
03/18/04                 This report included a recommendation to strengthen user access controls. The
                         recommendation will be addressed as part of a TVA-wide effort that is expected to be
                         completed in December 2006.




TVA Office of the Inspector General                                                                               page 44
Appendix 4



Audit Reports With Corrective Actions Pending
AUDIT REPORT
NUMBER
AND DATE       DESCRIPTION




2003-067P      TVA’s Compliance with the National Energy Conservation Policy Act
02/02/04       This report included a recommendation to continue to evaluate opportunities to reduce energy
               consumption, including promoting sustainable building design when appropriate. Actions
               planned by TVA management to reduce energy consumption include implementation of the
               Internal Energy Efficiency Process, the Internal Energy Management Program, and the Resource
               Efficient Building Design Process. Management expects the process implementations to be
               completed by May 2006.

2004-016T-01   Payroll System Controls
12/07/04       This report included recommendations to strengthen controls over the payroll process and
               system. TVA management is implementing planned remediation actions which are expected to
               be complete by April 15, 2006.

2004-059T      Pre-Implementation Review of Security of New Servers for IBS,
11/24/04       Fixed Assets, and BOSS Applications
               This report included recommendations that TVA management take action to improve the
               security of the servers. TVA management is expected to complete planned remediation actions
               by September 30, 2006.

2004-060T      IT Security Review of New Servers for HR and PR Applications
11/19/04       This report included recommendations that TVA management take action to improve the
               security of the servers. TVA management is expected to complete planned remediation actions
               by May 15, 2006.

2005-001T      Vulnerability Assessment on Solaris Standard Image
11/19/04       This report included recommendations to strengthen controls within the standard solaris image.
               TVA management is expected to complete remediation by June 30, 2006.

2005-009T      Review of TVA’s Information Factory Application, Access, and General
06/30/05       Controls
               This report included recommendations to strengthen controls for the system. TVA management
               is implementing planned remediation actions which are expected to be complete by
               September 30, 2006.

2005-012T      Integrated Business System Application, Access, and General Controls
06/30/05       This report included recommendations to strengthen controls over the general ledger system.
               Remediation has been completed on three recommendations. TVA management is
               implementing planned remediation actions for the remaining items which are expected to be
               complete by April 15, 2006.

2005-022T      Security, Test, and Evaluation of the IT Security Data System
08/30/05       This report included recommendations to strengthen controls over the system. TVA
               management is implementing planned remediation actions which are expected to be complete
               by April 30, 2006.




page 45                                                             October 1, 2005 ~ March 31, 2006
                                                                                              Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys                                                   5
          Subjects Referred to State/Local Authorities                                          0


Results

          Subjects Indicted                                                                     3
          Subjects Convicted                                                                    3
          Referrals Declined                                                                    8




* These numbers include task force activities and joint investigations with other agencies.




TVA Office of the Inspector General                                                                 page 46
Highlights



                                               MAR 31,       SEPT 30,         MAR 31,           SEPT 30,    MAR 31,
                                                2006           2005            2005               2004       2004

AUDITS
AUDITS IN PROGRESS
Carried Forward                                   24              30              28                29         37
Started                                           22              41              35                38         36
Canceled                                           3              11               2                 5          5
Completed                                         22              29              31                34         39
In Progress at End of Reporting Period            21              24*             30                28         29

AUDIT RESULTS (Thousands)
Questioned Costs                                $774         $6,422          $8,859             $1,763     $14,127
Disallowed by TVA                               1,122         4,969           7,586              2,948      10,453
Recovered by TVA                                1,641         5,016**         2,312              1,113         697

Funds to Be Put to Better Use                   $700         $5,634         $24,306             $1,471     $11,904
Agreed to by TVA                                 633          1,251          20,181              7,021       5,800
Realized by TVA                                  740          6,002           7,886              7,196      11,708

OTHER AUDIT-RELATED PROJECTS
Completed                                         11              10               3                 8         30
Cost Savings Identified/Realized (Thousands)     $36              $0              $0                $0          0

I N V E S T I G AT I O N S * * *
INVESTIGATION CASELOAD
Opened                                            80             84              84               118         162
Closed                                            71             84             103               163          76
In Progress at End of Reporting Period           148            157             157               176         221

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                     $2,966.5      $1,880.3          $216.3            $460       $3,412
Savings                                         1,625.4          36           1,581.5             447.7        863
Fines/Penalties                                     6.2           6.7              .4             451.6         10

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                           17             10              11                14          8
Actions Taken (# of Subjects)                       9             13              16                30         75
Counseling/Management
   Techniques Employed (# of Cases)                14             16              12                16         13

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                            5              8              12                25         17
Indicted                                            3              4               3                 9          3
Convicted                                           3              5               4                 3          3

INSPECTIONS
Completed                                         14             13               14                8
Cost Savings Identified/Realized (Thousands)      $0           $118               $0             $226

  * Adjusted from previous semiannual report.
 ** Includes excess funds recovered by TVA of $33,219.
*** These numbers include task force activities and joint investigations with other agencies.




page 47                                                                         October 1, 2005 ~ March 31, 2006
OIG LEADERSHIP PHILOSOPHY
        The TVA OIG strives to be a high performing
        organization made up of dedicated individuals
        who are empowered, motivated, competent, and
        committed to producing high quality work that
        improves TVA and life in the Valley.

        Each of us has important leadership,
        management, team, and technical roles.

        We value integrity, people, open communication,
        expansion of knowledge and skills, creative
        problem solving and collaborative
        decisionmaking.
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY
                     400 WEST SUMMIT HILL DRIVE
                   KNOXVILLE, TENNESSEE 37902-1401
